                                                               Issue Date
                                                                        August 3, 2007
                                                               Audit Report Number
                                                                        2007-CH-1012




TO:        Robert E. Nelson, Director of Public Housing Hub, 5FPH


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Plymouth Housing Commission, Plymouth, Michigan, Needs to Improve Its
           Section 8 Housing Choice Voucher Program Administration

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Plymouth Housing Commission’s (Commission) Section 8
             Housing Choice Voucher program (program). The audit was part of the activities
             in our fiscal year 2006 annual audit plan. We selected the Commission based
             upon a risk analysis that identified it as having a high-risk program. Our
             objective was to determine whether the Commission administered its program in
             accordance with the U.S. Department of Housing and Urban Development’s
             (HUD) requirements. This is the first of two audit reports on the Commission’s
             program.

 What We Found

             The Commission’s program administration regarding documentation to support
             households’ eligibility for housing assistance, housing assistance and utility
             allowance payments calculations, the Family Self-Sufficiency program,
             household portability, and the cost allocation plan for indirect costs was
             inadequate. The Commission was unable to support more than $138,000 in
             housing assistance and utility allowance payments, overpaid nearly $10,000 and
             underpaid nearly $9,000 in housing assistance and utility allowances, lacked
             adequate documentation to support nearly $1,900 in reduced housing assistance
             and utility allowance payments, and failed to remove from its program households
             that did not receive housing assistance for more than 180 days.
           Further, the Commission failed to administer its and the Dearborn Heights
           Housing Commission’s Family Self-Sufficiency programs according to the United
           States Code, HUD’s requirements, and its family self-sufficiency action plan. As
           a result, the Commission had nearly $930,000 in escrow funds that should have
           been paid to program participants or reimbursed to the applicable program,
           misused $53,000 in Housing Choice Voucher/Family Self-Sufficiency Program
           Coordinators (Coordinators) funds, inappropriately paid more than $14,000 in
           final escrow payments, could not support more than $13,000 in participants’
           escrow accounts, and overfunded and underfunded participants’ escrow accounts
           by more than $2,000.

           The Commission had weaknesses in the accuracy of housing assistance and
           program administrative fee payments it made to receiving housing authorities for
           port-out households. It also failed to establish an adequate cost allocation plan
           and appropriately allocate indirect costs shared by all of the housing programs it
           administered.

           We informed the Commission’s executive director and the director of HUD’s
           Detroit Office of Public Housing of minor deficiencies through a memorandum,
           dated Augus 2, 2007.

What We Recommend

           We recommend that the director of HUD’s Detroit Office of Public Housing
           require the Commission to reimburse its program from nonfederal funds for the
           improper use of program funds, reimburse its Coordinators funds from nonfederal
           funds for incorrectly administering its Family Self-Sufficiency program, provide
           support or reimburse its program from nonfederal funds for the unsupported
           payments, and implement adequate procedures and controls to address the
           findings cited in this audit report.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our file review results and supporting schedules to the director of
           HUD’s Detroit Office of Public Housing and the Commission’s executive director
           during the audit. We also provided our discussion draft audit report to the
           Commission’s executive director, its board president, and HUD’s staff during the
           audit. We held an exit conference with the Commission’s executive director on
           July 2, 2007.

           We asked the executive director to provide comments on our discussion draft
           audit report by July 31, 2007. The executive director provided written comments,


                                            2
dated July 10, 2007. The executive director generally agreed with our findings.
The complete text of the written comments, along with our evaluation of that
response, can be found in appendix B of this report.




                                3
                             TABLE OF CONTENTS

Background and Objective                                                             5

Results of Audit
        Finding 1: Controls over Housing Assistance and Utility Allowance Payments
                   Need Improvement                                                  6

        Finding 2: The Commission Failed to Operate Family Self-Sufficiency
                   Programs in Accordance with Federal Requirements                  11

        Finding 3: The Commission’s Controls over Port-Out Payments Were Weak        19

        Finding 4: The Commission Lacked an Adequate Cost Allocation Plan for
                   Indirect Costs                                                    22

Scope and Methodology                                                                24

Internal Controls                                                                    26

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use               28
   B.   Auditee Comments and OIG’s Evaluation                                        30
   C.   Federal Requirements and Commission’s Policies                               33
   D.   Household File Reviews – Missing or Incomplete Documentation                 39
   E.   Housing Assistance and Utility Allowance Payment Errors                      40




                                              4
                       BACKGROUND AND OBJECTIVE

The Plymouth Housing Commission (Commission) was established by the City of Plymouth,
Michigan (City), in November 1963 under the laws of the State of Michigan to provide decent,
safe, and sanitary housing for low-income families under the United States Housing Act of 1937.
The Commission is governed by a five-member board of commissioners (board) appointed by
the City manager to five-year staggered terms. The board’s responsibilities include overseeing
the Commission’s operations, as well as the review and approval of its policies. The board
appoints the Commission’s executive director, who serves as the board’s secretary. The
executive director is responsible for fulfilling the goals and objectives established by the board.

The Commission administers its Section 8 Housing Choice Voucher, Public Housing, and Public
Housing Capital Fund programs. As of June 2007, it also administers the Dearborn Heights and
Ingham County Housing Commissions’ Section 8 Housing Choice Voucher programs and the
South Lyon Housing Commission’s Public Housing program. The Commission will no longer
administer the Ingham County and the South Lyon Housing Commissions’ programs effective
October 1, 2007, and July 1, 2007, respectively. It provides assistance to low- and moderate-
income individuals seeking decent, safe, and sanitary housing by subsidizing rents with owners
of existing private housing. As of July 12, 2007, the Commission had 1,624 program units under
contract with annual housing assistance payments totaling more than $10.5 million in program
funds. The Commission also received Housing Choice Voucher/Family Self-Sufficiency
Program Coordinators (Coordinators) funds to pay the salaries and fringe benefits of its program
staff that coordinate its Family Self-Sufficiency program.

Our objective was to determine whether the Commission administered the Section 8 Housing
Choice Voucher programs (programs) in accordance with the U.S. Department of Housing and
Urban Development’s (HUD) requirements. This included determining whether the Commission
(1) complied with HUD requirements by obtaining the necessary documentation to determine
household eligibility, and accurately calculated households housing assistance and utility
allowance payments; (2) complied with HUD requirements regarding the administration of the
Family Self-Sufficiency programs; (3) appropriately managed port-out households; and (4)
correctly allocated indirect costs to its various programs. This is the first of two audit reports on
the Commission’s programs.




                                                 5
                               RESULTS OF AUDIT

Finding 1: Controls over Housing Assistance and Utility Allowance
                        Payments Need Improvement
The Commission did not comply with HUD’s requirements and its program administrative plan
regarding housing assistance and utility allowance payments. It lacked documentation to support
housing assistance and utility allowance payments to program landlords and households,
incorrectly calculated payments, and did not remove from its program overincome households
that did not receive housing assistance for more than 180 days. This noncompliance occurred
because the Commission lacked adequate procedures and controls to ensure that HUD’s
requirements and its program administrative plan were appropriately followed. As a result, the
Commission was unable to support more than $138,000 in housing assistance and utility
allowance payments, overpaid nearly $10,000 and underpaid nearly $9,000 in housing assistance
and utility allowances, and lacked adequate documentation to support reduced housing assistance
and utility allowance payments totaling $1,850.


 The Commission Lacked
 Documentation to Support
 More Than $137,000 in Housing
 Assistance and Utility
 Allowance Payments

              From the 2,517 program households that received housing assistance from
              January 1, 2005, through September 30, 2006, we statistically selected 88
              households’ files by using ACL Services Limited software. The 88 files were
              reviewed to determine whether the Commission had documentation for and
              correctly calculated households’ housing assistance and utility allowance
              payments for the period January 2005 through September 2006. Our review was
              limited to the information maintained by the Commission in its households’ files.
              The methodology for our stastical selection is explained in the Scope and
              Methodology section of this audit report.

              The Commission lacked documentation to support housing assistance and utility
              allowance payments totaling $137,424 for the period January 2005 through
              September 2006. Of the 88 files reviewed, 32 (36 percent) were missing or had
              incomplete documentation as follows:

                     11 were missing proof of a criminal activity screening;
                     10 were missing a disclosure of information on lead-based paint;
                     Six were missing signed declaration of U.S. citizen certifications;
                     Five were missing a lease agreement;
                     Four were missing HUD Form 9886, Authorization for the Release of
                      Information and Privacy Act Notice;


                                              6
                Four were missing HUD Form 52641, Housing Assistance Payment
                 Contract;
                Four were missing the households’ initial application;
                Two were missing proof of legal identity; and
                One was missing proof of Social Security numbers.

            The 32 files did not include documentation required by HUD’s regulations and
            the Commission’s administrative plan. Appendix D of this report includes the
            results of our household file reviews.

The Commission Miscalculated
Housing Assistance and Utility
Allowance Payments

            The Commission’s miscalculations resulted in overpayments of $9,644 and
            underpayments of $8,725 in housing assistance and utility allowances. The
            Commission incorrectly calculated housing assistance and/or utility allowance
            payments for 48 of the 88 (55 percent) households in one or more of the
            certifications reviewed. The 48 files contained the following errors:

                  35 had annual income calculation errors for one or more certifications,
                  19 had incorrect payment standards for one or more certifications,
                  18 had inappropriate utility allowances for one or more certifications,
                  Four had inaccurate rents for one or more certifications,
                  Three had incorrect family composition for one or more certifications,
                  Two had inaccurate voucher size for one or more certifications, and
                  Two did not use the Commission’s minimum rent for one certification.

            Appendix E of this report details the housing assistance and utility allowance
            payment errors that resulted from the Commission’s incorrect calculations.

            The Commission lacked sufficient income documentation to support its income
            calculations for four households. It could not support the reduced housing
            assistance and utility allowance payments totaling $1,850 for the four households.
            The following table shows the unsupported reduction in housing assistance and
            utility allowance payments to the four households.

                                              Unsupported reduction in housing
                             Household    assistance and utility allowance payments
                              number         2005            2006           Total
                               1947              $600                $0         $600
                               4905                672                0           672
                               5429                394                0           394
                               5718                  0             184            184
                              Totals            $1,666            $184        $1,850

            Further, the Commission lacked third-party income verifications for 31
            households. HUD’s Enterprise Income Verification system (system) showed that


                                             7
          one of the households, number 5471, had $5,174 in income that the Commission
          did not include in its income calculation. Therefore, the Commission lacked
          support that $1,447 in housing assistance and utility allowance payments for the
          household was appropriate.

          HUD performed rental integrity monitoring reviews in 2003 and 2006, a rental
          integrity monitoring re-review in 2004, and Section 8 management assessment
          program reviews for fiscal years 2004 and 2005. The reviews identified income
          calculation errors and missing third-party verification issues similar to the ones
          cited in this finding. The Commission revised its policies and procedures twice
          during our audit period to improve its quality control process and organization of
          household files based on HUD’s recommendations. However, it continued to
          make calculation errors and failed to consistently obtain third-party verifications
          as evidenced by our review. After our audit period in October 2006, the
          Commission revised it policies and procedures for a third time; however, we did
          not evaluate the effectiveness of these revisions.

          The Commission’s program administrative plan addressed how households would
          be reimbursed when an underpayment of housing assistance occurred.

The Commission Did Not
Remove Overincome
Households

          Contrary to HUD’s regulations, the Commission did not ensure that overincome
          households only remained on its program for 180 days. From January 2005
          through December 2006, the Commission had 24 households that earned
          sufficient income to pay their full monthly rent and did not receive housing
          assistance payments. It failed to remove 14 of the 24 households from its
          program although the households had not received housing assistance payments
          for more than 180 days. The 14 households remained on the program from one to
          nine months beyond the 180 days. The following table shows the number of
          months that the 14 overincome households remained on the Commission’s
          program beyond 180 days after their last housing assistance payment.




                                           8
                                                                                             Number
                           Date of last       180 days after last      Date household      of months
           Household    housing assistance    housing assistance       removed from           beyond
            number           payment               payment                program            180 days
              3928         May 1, 2004         October 28, 2004        August 1, 2005            9
              650          July 1, 2004       December 28, 2004        March 1, 2005             2
              2154       February 1, 2005        July 31, 2005         October 1, 2005           2
              3995        March 1, 2005        August 28, 2005         March 31, 2006            7
              5611      September 1, 2005     February 28, 2006      September 30, 2006          7
              5628      September 1, 2005     February 28, 2006      September 30, 2006          7
              4432      November 1, 2005        April 30, 2006       September 30, 2006          5
              2131       January 1, 2006         June 30, 2006       September 30, 2006          3
              4027        March 1, 2006        August 28, 2006       September 30, 2006          1
              3409         June 1, 2006       November 28, 2006        March 31, 2007            4
              5601        August 1, 2006       January 28, 2007        March 31, 2007            2
              4274      September 1, 2006     February 28, 2007        March 31, 2007            1
              5666       October 1, 2006        March 30, 2007         April 30, 2007            1
              1741      November 1, 2006        April 30, 2007         May 30, 2007*             1
         * The Commission had not removed the household from the program as of May 30, 2007.


The Commission’s Procedures
and Controls Had Weaknesses

             The weaknesses regarding the missing documentation, incorrect calculations, and
             the failure to remove from its program overincome households that did not
             receive assistance for more than 180 days occurred because the Commission
             lacked adequate procedures and controls to ensure that it appropriately followed
             HUD’s requirements and its administrative plan. The Commission did not ensure
             that it fully implemented HUD’s requirements and its program administrative plan
             and that file management procedures were standardized. It also did not
             consistently document its quality control reviews of households’ files and the
             followup with its staff when deficiencies were identified to ensure that those
             deficiencies did not continue.

Conclusion

             The Commission improperly used its program funds when it failed to comply with
             HUD’s regulations and its administrative plan. As previously mentioned, the
             Commission disbursed $138,871 ($137,424 due to a lack of file eligibility
             documentation plus $1,447 due to unsupported income documentation) in housing
             assistance and utility allowance payments without proper documentation,
             overpaid $9,644 and underpaid $8,725 in housing assistance and utility
             allowances, and was unable to support reduced housing assistance and utility
             allowance payments totaling $1,850.

             In accordance with 24 CFR [Code of Federal Regulations] 982.152(d), HUD may
             reduce or offset any administrative fee to public housing authorities (authorities),
             in the amount determined by HUD, if the authorities fail to perform their


                                               9
          administrative responsibilities correctly or adequately under the program. The
          Commission received $25,029 in program administrative fees related to the
          unsupported and inappropriate payments for 56 of the 88 program households and
          $2,208 in program administrative fees for the 14 overincome households
          inappropriately maintained on its program.

Recommendations

          We recommend that the director of HUD’s Detroit Office of Public Housing
          require the Commission to

          1A.     Provide supporting documentation or reimburse the applicable program
                  $145,966 ($138,871 in housing assistance and utility allowance payments
                  and $7,095 in associated administrative fees) from nonfederal funds for
                  the unsupported payments and associated administrative fees cited in this
                  finding.

          1B.     Reimburse the applicable program $27,578 ($9,644 for the overpayment
                  of housing assistance and utility allowances and $17,934 in administrative
                  fees associated with the overpayment and underpayment of housing
                  assistance and utility allowances for the 48 households) from nonfederal
                  funds.

          1C.     Reimburse the appropriate housholds $8,725 for the underpayment of
                  housing assistance and utility allowances cited in this finding.

          1D.     Provide supporting documentation or reimburse the appropriate
                  households $1,850 for the lack of sufficient income documentation to
                  support reduced housing assistance and utility allowance payments cited
                  in this finding.

          1E.     Reimburse the applicable program $2,208 in administrative fees for the 14
                  households inappropriately maintained on the program from nonfederal
                  funds.

          1F.     Implement adequate procedures and controls over its housing assistance
                  and utility allowance payments to ensure that they comply with HUD’s
                  requirements and the Commission’s administrative plan.

          1G.     Implement adequate procedures and controls to ensure that supervisory
                  quality control reviews are documented, with feedback provided to
                  applicable staff to correct the recurring housing assistance and utility
                  allowance payment deficiencies noted.




                                           10
Finding 2: The Commission Failed to Operate Family Self-
    Sufficiency Programs in Accordance with Federal Requirements
The Commission failed to operate its and the Dearborn Heights Housing Commission’s Family
Self-Sufficiency programs according to the United States Code, HUD’s requirements, and its
family self-sufficiency action plan. This noncompliance occurred because the Commission
failed to exercise proper supervision and oversight of the Family Self-Sufficiency programs and
lacked adequate procedures and controls to ensure that federal requirements were appropriately
followed. As a result, the Commission had nearly $930,000 in escrow funds that should either
have been paid to Family Self-Sufficiency program participants or reimbursed to the applicable
program, misused $53,000 in Coordinators funds, inappropriately paid more than $14,000 in
final escrow payments, could not support more than $13,000 in participants’ escrow accounts,
and overfunded and underfunded participants’ escrow accounts more than $2,000.


 The Commission Failed to
 Operate the Family Self-
 Sufficiency Programs

              The Commission inappropriately administered its and the Dearborn Heights
              Commission’s Family Self-Sufficiency programs by failing to ensure escrow
              funds were not credited to participants whose contracts of participation expired or
              were terminated from the applicable program, maintain an effective coordinating
              committee (committee) and program coordinator, ensure that all required
              documents were properly maintained and executed for the participating
              households, ensure participants’ escrow credits were accurate, and escrow interest
              payments were credited appropriately.

 The Commission’s Escrow
 Account Contained Funds from
 Expired or Terminated
 Contracts of Participation

              The Commission’s escrow account contained funds from participants whose
              contracts of participation expired or were terminated from the applicable program.
              For participants with whom the Commission had contracts of participation, the
              effective dates of the contracts matched the participants’ start dates in the report.
              Therefore, we relied on the participants’ start dates in the report as the date that
              participants began their participation in the Family Self-Sufficiency programs and
              expanded our review regarding how long participants were active to all 276
              participants.

              As of February 2007, 177 (64 percent) of the 276 participants’ contracts of
              participation had expired or would have expired if the Commission had properly
              executed contracts of participation. The Commission’s escrow account contained


                                               11
           $738,755 for the 177 participants. The contracts of participation expired or would
           have expired from April 2003 through September 2006. None of the participants
           requested extensions to the terms of the contracts of participation.

           In addition, the Commission’s escrow account inappropriately contained
           $188,930 for 42 participants with whom the Commission had terminated contracts
           of participation. According to 24 CFR [Code of Federal Regulations]
           984.305(f)(2)(ii), escrow account funds forfeited by a household must be treated
           as program receipts for payment of program expenses under the Commission’s
           budget for the program and used in accordance with HUD requirements
           governing the use of program receipts.

           As a result of the expired contracts of participation, and the retained funds from
           the participants who were terminated from the programs, the Commission had
           nearly $930,000 ($738,755 plus $188,930) in escrow funds that should either have
           been paid to the Family Self-Sufficiency program participants or reimbursed to
           the applicable program.

The Commission Failed To
Maintain an Effective
Committee and Program
Coordinator

           The Commission did not maintain an effective coordinating committee
           (committee) in accordance with HUD’s regulations and its family self-sufficiency
           action plan. The action plan stated that the committee would consist of the
           Commission’s staff, the Child and Family Services Agency (Agency), a nonprofit
           organization that was to provide case management for the Family Self-Sufficiency
           programs, a Family Self-Sufficiency program participant who would represent
           other participants, and representatives from local agencies that were to provide
           services and opportunities to participants. The Commission took over case
           management for the Family Self-Sufficiency programs when the Agency ended its
           membership in the committee in October 1997. The executive director said that
           the Commission’s employees had been the only members of the committee since
           before January 2005. However, the Commission could not provide
           documentation to support that the committee was active from January 2005
           through May 2007.

           The Commission also failed to maintain an effective family self-sufficiency
           coordinator. The Commission employed a part-time coordinator from June 2004
           to December 2006 to manage the programs. However, the coordinator did not
           effectively oversee the programs by failing to ensure that program participants
           were linked to the supportive services they needed to achieve self-sufficiency,
           which is the main purpose of the family self-sufficiency coordinator. The
           executive director acknowledged that the family self-sufficiency coordinator did
           not adequately perform the responsibilities of the position.



                                           12
          HUD awarded the Commission a grant for $85,049 under its Housing Choice
          Voucher/Family Self-Sufficiency Coordinator program in fiscal years 2005 and
          2006. These funds were made available to pay the salary and fringe benefits of a
          coordinator under the stipulation that the Commission administer the Family Self-
          Sufficiency program in accordance with federal regulations and HUD
          requirements. The Commission used $53,000 of the funds from January 2006
          through March 2007. Given that the Commission and the coordinator failed to
          maintain an effective program and implement local strategies to coordinate the
          use of the program with public and private resources to enable eligible households
          to achieve economic self-sufficiency, the Commission may have not properly
          used the $53,000 in Coordinating funds. Therefore, HUD should make a
          determination if any of the grant funds used to pay the coordinator achieved the
          purpose of the program.

The Commission Failed to
Ensure Required
Documentation Was Properly
Maintained and/or Executed

          We statistically selected for review 23 of the Commission’s and the Dearborn
          Heights Housing Commission’s 276 active Family Self-Sufficiency program
          participants as of September 2006. We selected an additional seven participants
          due to their large escrow account balances. Of the 30 participant files selected for
          review

              None of the files contained the needs of the participants, the services to be
               provided to the participants, the activities to be completed by the
               participants, interim or final goals, or escrow account balance reports;
              17 files did not contain an individual training and services plan;
              12 files contained contracts of participation that were not signed by the
               Commission; and
              11 files did not contain a contract of participation.

          According to HUD’s regulations at 24 CFR [Code of Federal Regulations]
          984.303, the Commission was required to enter into a contract of participation
          with each household selected to participate in the Family Self-Sufficiency
          programs. It was required to establish within the contract of participation specific
          interim and final goals, the services to be provided, and the activities to be
          completed by the participants. The contract of participation was to establish that
          each participant be required to fulfill the obligations outlined in the contract no
          later than five years after the effective date of the contract.

          According to HUD’s regulations at 24 CFR [Code of Federal Regulations]
          984.305(c), to disburse escrow funds before completion of the Family Self-
          Sufficiency programs, the Commission was required to determine that a
          participant had fulfilled certain interim goals established in the contract of
          participation and needed a portion of the escrow funds consistent with the


                                           13
           contract. Further, the Commission should not make final escrow fund
           disbursements without first determining whether a participant had fulfilled the
           obligations under the contract of participation or 30 percent of the participant’s
           household monthly adjusted income equaled or exceeded the published existing
           housing fair market rate rent for the size of unit for which the participant’s
           household qualified based on the Commission’s occupancy standards, before the
           expiration of the contract. The Commission’s contract of participation with a
           participant stated that the resources and supportive services to be provided to a
           participant would be stated in the individual training and services plan.

           As previously mentioned, for the participants’ files reviewed, the Commission
           could not provide documentation to support that it established within the contracts
           of participation specific interim and final goals, the services to be provided, and
           the activities to be completed by the participants. Therefore, it also could not
           document that it could make a determination as to whether the participants
           fulfilled interim goals or obligations under their contracts of participation,
           significantly limiting the participants’ eligibility to receive escrow fund
           disbursements. The Commission provided historical income data for all 30
           participants reviewed; however, the documentation showed that only two
           participants met the 30 percent income requirement during the terms of their
           contracts. Further, only five of the participants were active, based on the
           Commission’s family self-sufficiency escrow account detail report (report), which
           included the participants’ start dates under the Family Self-Sufficiency programs.
           The five participants’ escrow accounts totaled $13,606.

           The Commission disbursed $17,820 in final escrow payments to four participants
           from January 2005 through November 2006. However, it failed to establish
           within the contracts of participation specific interim and final goals, the services
           to be provided, and the activities to be completed by the participants. It also did
           not determine whether the four participants were income eligible to receive final
           escrow payments. Three of the four participants who received $14,084 in final
           escrow payments were not income eligible.

Escrow Account Credits Were
Inaccurate

           The Commission inappropriately calculated the escrow account credits for at least
           one month for 14 of the 30 participants from January 2005 through September
           2006. It overfunded five participants’ escrow accounts totaling $2,123 and
           underfunded nine participants’ escrow accounts totaling $2,173. These errors
           occurred because the Commission failed to perform case management of the
           participants’ files to ensure that escrow credit calculations were adequately
           determined.




                                            14
Escrow Interest Was Not
Prorated and Credited
Appropriately

           Contrary to HUD’s regulations, the Commission allocated earned interest on its
           escrow savings accounts for both its and the Dearborn Heights Housing
           Commission’s Family Self-Sufficiency programs based on .1 percent of each
           participant’s escrow account balance. Therefore, it did not appropriately prorate
           and credit the earned interest to each participant’s escrow account based on each
           participant’s balance.

The Commission’s Procedures
and Controls Need
Improvement

           The Commission needs to improve its procedures and controls in the
           administration of the Family Self-Sufficiency programs. The Commission failed
           to exercise proper supervision and oversight of the Family Self-Sufficiency
           programs. It also lacked adequate procedures and controls to ensure that federal
           requirements were appropriately followed.

           The Commission’s fiscal year 2002 independent audit report disclosed a finding
           regarding the Commission’s Family Self-Sufficiency escrow account. The
           independent auditor noted that the Commission’s escrow ledger did not agree to
           the Commission’s general ledger balance, and as a result, the Family Self-
           Sufficiency escrow liability, as presented in the financial statement, may not be an
           accurate representation of the account. This finding was repeated in the
           Commission’s independent audit reports for fiscal years 2003 and 2004 because
           the Commission failed to provide documentation that it implemented corrective
           action. In the Commission’s fiscal year 2005, the independent audit report stated
           the Commission was implementing corrective action. Therefore, HUD’s Detroit
           Office of Public Housing informed the Commission in a letter, dated December
           23, 2005, that based upon the submission of documentation to support that the
           Commission’s Family Self-Sufficiency escrow account was in balance with the
           general ledger, the finding was closed.

The Schiff Group Reviewed the
Commission’s Program


           In September 2006, the Commission contracted with The Schiff Group to review
           its program. During the review, The Schiff Group identified problems with the
           Commission’s records for its and the Dearborn Heights Housing Commission’s
           Family Self-Sufficiency programs. The Commission then contracted with The
           Schiff Group to perform a full review of the Family Self-Sufficiency programs.
           The Schiff Group’s report stated that the committee did not exist as of October


                                            15
             2006, active participants lacked executed contracts of participation or individual
             training and services plans, the Commission’s escrow accounts contained
             significant balances (did not specify an amount) for terminated participants,
             participants were receiving escrow funds without adequate documentation, and
             the Commission was not managing the Family Self-Sufficiency programs.
             However, The Schiff Group’s report did not identify that the Commission had
             participants with contracts of participation that had expired or would have expired
             if it had properly executed contracts of participation, inappropriately calculated
             the escrow account credits for participants, and improperly allocated interest for
             participants’ escrow savings accounts.

             The Schiff Group developed a corrective action plan to assist the Commission in
             improving its management of the Family Self-Sufficiency programs. As of June
             2007, the Commission had implemented such actions listed in the corrective
             action plan as issuing letters to all participants with expired contracts to determine
             their eligibility to receive escrow payments and entering into a contract with
             Wayne Metro, a nonprofit organization, to perform case management.

Conclusion

             The Commission improperly used funds from the Family Self-Sufficiency
             programs when it failed to comply with federal requirements and its own policies.
             The Commission’s failure to maintain sufficient documentation (1) made it
             difficult to determine whether the Family Self-Sufficiency programs met their
             goal of enabling households to become economically self-sufficient and (2)
             increased the likelihood that inappropriate participants received payments. It also
             reduced the Commission’s ability to monitor and measure the effectiveness of the
             Family Self-Sufficiency programs.

             As a result of its noncompliance, the Commission had nearly $930,000 in escrow
             funds that could be put to better use, misused $53,000 in Coordinators funds,
             inappropriately paid more than $14,000 in final escrow payments, overfunded
             participants’ escrow accounts by $2,123, and underfunded participants’ escrow
             accounts by $2,173.

             Unless the Commission improves its procedures for the Family Self-Sufficiency
             programs, we estimate that it could inappropriately use $32,049 in Coordinators
             funds for its program in the next year. We determined this amount based on the
             unused fiscal year 2006 Coordinators funds awarded to the Commission. Further,
             the Commission will not credit 177 participants’ escrow accounts with $169,176
             in program funds over the next 12 months. We determined this amount by
             multiplying the average monthly amount of escrow credits the Commission made
             to the 177 participants’ escrow accounts from September through December 2006
             by 12 months.




                                               16
Recommendations

          We recommend that the director of HUD’s Detroit Office of Public Housing
          require the Commission to

          2A.     Determine whether the 177 participants with $738,755 in escrow account
                  funds cited in this finding had contracts of participation and either fulfilled
                  their obligations under the contract or were income eligible during the
                  term of the contract.

          2B.     Disburse to the applicable participants cited in recommendation 2A the
                  appropriate amount of the participants’ escrow funds under contracts of
                  participation if they fulfilled their obligations under the contracts or were
                  income eligible during the term of the contract.

          2C.     Reimburse the applicable program the participants’ escrow funds for
                  participants who were not under a contract of participation or were under a
                  contract, but did not fulfill their obligations under the contracts or were
                  not income eligible during the term of the contract.

          2D.     Reimburse the applicable program $188,930 for the 42 participants with
                  whom it terminated the contracts of participation.

          2E.     Remove the 177 participants cited in this finding from its report so that it
                  does not credit the participants’ escrow accounts $169,176 in program
                  funds over the next 12 months.

          2F.     Establish a committee in accordance with HUD’s regulations and its
                  family self-sufficiency action plan.

          2G.     Provide documentation to support its allocation of time spent correctly
                  administering its Family Self-Sufficiency program or reimburse its
                  Coordinators funds from nonfederal funds the appropriate portion of the
                  $53,000 used for fiscal years 2005 and 2006 when the Commission’s
                  program was incorrectly administered.

          2H.     Implement adequate procedures and controls over the Family Self-
                  Sufficiency programs to ensure that it follows federal requirements and its
                  HUD-approved family self-sufficiency action plan to prevent $32,049 in
                  Coordinators funds from being spent over the next 12 months contrary to
                  federal requirements.

          2I.     Provide documentation to support that it entered into contracts of
                  participation with and/or included within the contracts specific interim and
                  final goals, the services to be provided, and the activities to be completed
                  by the five participants cited in this finding or reimburse the applicable
                  program $13,606 from the five participants’ escrow funds.


                                            17
2J.   Reimburse the applicable program $14,084 from nonfederal funds for the
      final escrow payments to participants whose contracts of participation
      lacked specific interim and final goals, the services to be provided, and the
      activities to be completed by the participants and who were not income
      eligible.

2K.   Reimburse the applicable program $2,123 for the overfunding of five
      participants’ escrow accounts in escrow funds.

2L.   Transfer to the nine participants’ escrow accounts $2,173 in program
      funds for the underfunding of escrow funds cited in the finding.

2M.   Implement adequate procedures and controls to ensure interest earned on
      its escrow account is appropriately prorated and credited to the
      participants’ escrow balances.




                               18
Finding 3: The Commission’s Controls over Port-Out Payments Were
                              Weak
 The Commission had weaknesses in the accuracy of housing assistance and program
 administrative fee payments made to receiving housing authorities for port-out households. This
 problem occurred because the Commission lacked adequate procedures and controls to ensure
 that portability payments were accurate. As a result, it made net underpayments of housing
 assistance totaling $5,840 and program administrative fees totaling $335.


  The Commission Did Not Make
  Accurate Payments for Port-
  Out Households

               Our review of the 14 files of port-out households for which the Commission made
               housing assistance payments to receiving housing authorities from January 2005
               through September 2006 showed that it overpaid and underpaid the receiving
               authorities for port-out households’ housing assistance and/or the authorities’
               program administrative fees. It overpaid three receiving authorities $4,908 and
               underpaid three receiving authorities $10,748, a net underpayment of housing
               assistance totaling $5,840. It also overpaid a receiving authority $235 in housing
               assistance payments for another household, which was refunded by the receiving
               authority. In addition, the Commission also inaccurately calculated program
               administrative fees for 13 of the 14 port-out households resulting in
               underpayments to receiving authorities totaling $335. The following table shows
               the underpayments and/or overpayments for the 13 port-out households.

                         Household Total housing assistance payments           Administrative fee
                          number       Overpayments        Underpayments         underpayments
                           1082                 $2,235                   $0                   ($24)
                           1750                      0                    0                      (22)
                           2433                      0                    0                      (50)
                           2715                  1,698                    0                       (9)
                           3206                      0                (747)                       (9)
                           4758                      0                    0                       (5)
                           5162                      0              (8,018)                      (22)
                           5495                      0                    0                      (43)
                           5955                      0                    0                      (37)
                           6082                    975                    0                      (43)
                           6515*                   235                    0                      (15)
                           15173                     0                    0                      (23)
                           15373                     0              (1,983)                      (33)
                           Totals               $4,908            ($10,748)                  ($335)
                        * Receiving authority refunded the overpayments; not included in totals.

               The Commission made the housing assistance payment errors for seven
               households due to the following:


                                                   19
                 Six households’ housing assistance payments were made after the
                  households were absorbed by the receiving authorities,
                 Four households’ housing assistance payments were not made;
                 Three households’ housing assistance payments were not for the
                  appropriate amount, and
                 Two households’ housing assistance payment changes were not processed
                  in a timely manner.

             The Commission also failed to make six households’ initial housing assistance
             payments to receiving authorities within the HUD-required timeframe and could
             not provide support for its calculation for 11 months of administrative fees paid to
             receiving authorities. Further, its portability module database contained housing
             assistance payment and administrative fee amounts and issuance dates for 11 of
             the 14 port-out households that did not match the Commission’s checks issued to
             the receiving authorities.

The Commission’s Procedures
and Controls Had Weaknesses

             The weaknesses regarding the overpayment and underpayment of housing
             assistance and underpayment of program administrative fees occurred because the
             Commission lacked adequate procedures and controls to ensure that it
             appropriately followed HUD’s requirements and its program administrative plan.
             The inaccurate payments occurred because the Commission’s staff lacked training
             in processing housing assistance and administrative fee payments for port-out
             households. In addition, the Commission’s Section 8 director did not provide
             adequate supervision to the staff to ensure that payments were accurate. The data
             in the portability module were inaccurate because the Commission’s staff did not
             update the module after manually processing housing assistance and
             administrative fee payments.

Conclusion

             The Commission did not comply with HUD’s regulations and its program
             administrative plan when administering portable vouchers for 13 of the 14 port-
             out households. As previously mentioned, it overpaid $4,908 and underpaid
             $10,748 in housing assistance payments and underpaid $335 in administrative
             fees to receiving housing authorities for port-out households.

Recommendations

             We recommend that the director of HUD’s Detroit Office of Public Housing
             require the Commission to




                                              20
3A.   Pay the receiving housing authorities the $11,083 ($10,748 underpaid in
      housing assistance and $355 underpaid in program administrative fees) for
      the port-out households cited in this finding.

3B.   Request the receiving authorities to reimburse the $4,908 overpaid for
      port-out households cited in this finding.

3C.   Implement adequate procedures and control over its portability process to
      ensure that it meets HUD’s requirements and the Commission’s program
      administrative plan.




                              21
Finding 4: The Commission Lacked an Adequate Cost Allocation Plan
                        for Indirect Costs
The Commission failed to establish an adequate cost allocation plan and appropriately allocate
indirect costs shared by all of the housing programs it administers. These conditions occurred
because the Commission mistakenly thought that its allocation basis was appropriate and
reasonable. As a result, HUD and the Commission cannot be assured that the indirect costs were
reasonable and appropriate in relation to the benefits derived from the indirect costs.


 The Cost Allocation Plan Was
 Not Appropriate and Expenses
 Were Not Allocated Properly

              The Commission did not incorporate all of the various housing programs it
              administers in its written cost allocation plan for distributing indirect costs. It had
              a cost allocation plan for the program portion of indirect costs. The plan, which
              was based on the number of program units, stated that the Commission would
              allocate indirect costs in the following manner: 77 percent to the Commission’s
              program, 18 percent to the Dearborn Heights Housing Commission’s program,
              and 5 percent to the Ingham County Housing Commission’s program. However,
              the Commission administered its program, its Public Housing and Public Housing
              Capital Fund programs, the Dearborn Heights Housing Commission’s and the
              Ingham County Housing Commission’s programs, and the South Lyon Housing
              Commission’s Public Housing program.

              The Commission allocated 95 percent of its indirect costs such as telephone
              services and travel expenses to the various programs it administers and 5 percent
              to the Commission’s Public Housing program based on the number of units for
              each of the housing programs. It then applied its cost allocation plan for indirect
              costs to the program portion of the indirect costs. No indirect costs were allocated
              to the Commission’s Public Housing Capital Fund or the South Lyon Housing
              Commission’s Public Housing programs. Further, the Commission did not
              consider its or the Dearborn Heights Housing Commission’s Family Self-
              Sufficiency programs in its allocations. Therefore, it did not properly prorate
              indirect costs to all of the housing programs it administers.
              In addition, the Commission inappropriately charged 100 percent of some indirect
              costs to only one of the housing programs. For example, the Commission charged
              utilities for its administrative offices to its Public Housing program although it
              administered all of the housing programs from its administrative offices. Further,
              it charged digital subscriber line charges and internet service provider expenses to
              its program although these services were used by staff who worked on the other
              housing programs.

              The Commission’s executive director and fee accountant said that they felt it was
              appropriate to allocate indirect costs based on the number of units within the three


                                                22
          programs and the Commission’s Public Housing program. The Commission only
          charged utilities for its administrative offices to its Public Housing program since
          the administrative offices were located in a building that also included 104 of its
          Public Housing program units and maintenance offices. The executive director
          and fee accountant said that it would have been difficult to determine the
          appropriate amount to allocate to each of the housing programs. The fee
          accountant also said that he only charged certain minor expenses, such as digital
          subscriber line charges and internet service provider expenses, to the
          Commission’s program since its program incurred a majority of the costs and the
          costs were small.

          As a result, HUD and the Commission lack assurance that the indirect costs
          charged to the various housing programs the Commission administers were
          reasonable in relation to the benefits derived from the indirect costs.

Recommendations

          We recommend that the director of HUD’s Detroit Office of Public Housing
          require the Commission to

          4A.     Modify its cost allocation plan to properly allocate indirect costs to all of
                  the housing programs it administers in accordance with HUD’s
                  requirements and its program annual contributions contract.

          4B.     Implement adequate procedures and controls to follow HUD’s
                  requirements and its program annual contributions contract regarding the
                  allocation of indirect costs.




                                            23
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

            •   Applicable laws and regulations; the Commission’s program administrative plans
                effective before and as of June 2005, and operating procedures; the Commission’s
                family self-sufficiency action plan; United States Code, title 42, chapter 8,
                subchapter I, subsection 1437u; HUD’s program requirements at 24 CFR [Code of
                Federal Regulations] Parts 5, 982, 984, and 985; HUD’s notice of funding
                availability (notice) for fiscal years 2005 and 2006 Coordinators funds in the
                Federal Register, dated November 9, 2005, and November 2, 2006, respectively;
                HUD’s Public and Indian Housing Notices 2004-01, 2004-12, 2005-01, 2005-09,
                2005-28, 2006-03, 2006-05, and 2006-25; HUD’s Housing Assistance Payments
                Program Accounting Handbook 7420.6; HUD’s Housing Choice Voucher
                Guidebook 7420.10; HUD’s Form HUD-50058 Instruction Booklet; HUD
                Guidelines for Projecting Annual Income When Upfront Income Verification
                Data is Available, dated January 2004; and Form HUD-52641.

            •   The Commission’s accounting records, annual audited financial statements for 2002,
                2003, 2004, and 2005, general ledgers, bank statements, and cancelled checks,
                program household files, computerized databases, board meeting minutes for 2005
                and 2006, organizational chart, service agreements, and program annual
                contributions contract.

            •   HUD’s reports and files for the Commission.

We also interviewed the Commission’s employees, its fee accountant, and HUD staff.

Finding 1

We statistically selected 88 of the program households’ files using ACL Services Limited
software from the 2,517 households to which the Commission made housing assistance
payments from January 1, 2005, through September 30, 2006. The 88 households were selected
to determine whether the Commission had supporting documentation and correctly calculated
households’ housing assistance and utility allowance payments. Our sampling criteria used a 90
percent confidence level.

Finding 2

We statistically selected 23 of the Commission’s and Dearborn Heights Housing Commission’s
Family Self-Sufficiency programs participants’ files, using EZ-Quant software, from the 276
active participants as of September 30, 2006. We selected an additional seven participants due to
their large escrow account balances. The 30 participants were selected to determine whether the
Commission had supporting documentation for participation, correctly calculated escrow account
credits, and correctly prorated and credited escrow account interest. Our sampling criteria used a




                                                24
90 percent confidence level, 10 percent estimated error rate, and precision of plus or minus 10
percent.
As of June 2007, 25 (83 percent) of the 30 participants’ contracts of participation had expired or
would have expired if the Commission had properly executed contracts of participation. The
Commission’s escrow account contained $121,966, including $47,881 credited after five years
had elapsed, for the 25 participants. The contracts of participation expired or would have
expired from September 2005 through August 2006. None of the participants requested
extensions to the terms of the contracts of participation. Due to the high rate of participants who
had been in the Family Self-Sufficiency programs more than five years without an extension, we
expanded our review regarding how long participants were active to all 276 participants.

Unless the Commission improves its procedures for its Family Self-Sufficiency program, we
estimate that it could inappropriately use $32,049 in Coordinators funds for its program in the
next year. We determined this amount based on the unused fiscal year 2006 Coordinators funds
awarded to the Commission. Further, the Commission will not credit 177 participants’ escrow
accounts with $169,176 in program funds over the next 12 months. We determined this amount
by multiplying the average monthly amount of escrow credits the Commission made to the 177
participants’ escrow accounts from September to December 2006 by 12 months.

We performed our on-site audit work from October 2006 through June 2007 at the Commission’s
administrative offices, located at 1160 Sheridan, Plymouth, Michigan. The audit covered the period
January 1, 2005, through September 30, 2006, and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                                25
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               26
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The Commission lacked adequate procedures and controls to ensure
               compliance with HUD’s requirements and/or its program administrative plan
               regarding household files, housing assistance payments, the Family Self-
               Sufficiency programs, portability, and the allocation of indirect costs (see
               findings 1, 2, 3, and 4).




                                           27
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                             Funds to be put
              number           Ineligible 1/        Unsupported 2/   to better use 3/
                1A                                       $145,966
                1B                   $27,578
                1C                                                            $8,725
                1D                                           1,850
                1E                     2,208
                2A                                                           738,755
                2D                                                           188,930
                2E                                                           169,176
                2G                                         53,000
                2H                                                            32,049
                2I                                         13,606
                2J                    14,084
                2K                                                             2,123
                2L                                                             2,173
                3A                                                            11,083
                3B                                                             4,908
               Totals                $43,870             $214,422         $1,157,922


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In these instances, if the Commission implements our


                                               28
recommendations, it will cease to incur program costs for improper Family Self-
Sufficiency program participants’ escrow accounts, the inappropriate administration of its
Coordinators funds, and the payment of housing assistance and related program
administrative fees for port-out households and, instead, will expend those funds in
accordance with HUD’s requirements. Once the Commission successfully improves its
controls, this will be a recurring benefit. Our estimate reflects only the initial year of this
benefit.




                                          29
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         30
        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 2




                         31
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Commission should provide its file review results to HUD’s Detroit Office of
            Public Housing, not OIG.

Comment 2   The Commission should work with HUD’s Detroit Office of Public Housing
            regarding its cost allocation plan, not OIG.




                                           32
Appendix C

 FEDERAL REQUIREMENTS AND COMMISSION’S POLICIES

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.216 require that each assistance
applicant submit the following information to the processing entity when the assistance
applicant’s eligibility under the program involved is being determined:

      A complete and accurate Social Security number assigned to the assistance applicant and
       to each member of the assistance applicant’s household who is at least six years of age or

      If the assistance applicant or any member of the assistance applicant’s household who is
       at least six years of age has not been assigned a Social Security number, a certification
       executed by the individual involved.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.230(a) require each member of
the family of an assistance applicant or participant who is at least 18 years of age and each
family head and spouse regardless of age to sign one or more consent forms.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.240(c) state that public housing
authorities (authorities) must verify the accuracy of the income information received from a
household and change the amount of the total tenant payment, tenant rent, or program housing
assistance payment or terminate assistance, as appropriate, based on such information.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.508 require evidence of
citizenship or eligible immigration status for each household member regardless of age. For U.S.
citizens or U.S. nationals, the evidence consists of a signed declaration of U.S. citizenship or
U.S. nationality.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.54 require authorities to adopt
a written administrative plan that establishes local policies for the administration of the program
in accordance with HUD requirements. The administrative plan states the authorities’ policies
on matters for which authorities have discretion to establish local policies. The authorities must
administer the program in accordance with their administrative plan.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.158(a) state that authorities
must maintain complete and accurate accounts and other records for the program and in
accordance with HUD requirements in a manner that permits a speedy and effective audit.
Section 982.158(e) states that during the term of each assisted lease and for at least three years
thereafter, authorities must keep a copy of the executed lease, the housing assistance payments
contract, and the application from the family. Section 982.158(f) states that authorities must
keep the following records for at lease three years: records that provide income, racial, ethnic,
gender, and disability status data on program applicants and participants; unit inspection reports;
and lead-based paint records as required by 24 CFR [Code of Federal Regulations] Part 35.


                                                33
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.305(a) state that authorities
may not execute a housing assistance payments contract until the authorities determine that the
lease includes the tenancy addendum and the rent to the owner is reasonable. Section 982.305(b)
requires that the owner and the household execute a lease before the beginning of the initial term
of the lease. Section 982.305(c) states that a housing assistance payments contract must be
executed no later than 60 calendar days from the beginning of the lease term. The authorities
may not pay any housing assistance payment to an owner until the housing assistance payments
contract has been executed.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.308(b) state that the household
and the owner must enter a written lease for the unit. The owner and the household must execute
the lease. Section 982.308(d) states that the lease must specify the names of the owner and the
tenant; the address, apartment number, and any other information needed to identify the unit; the
terms of the lease; the amount of the monthly rent to the owner; and the utilities and appliances
to be supplied by the owner and the household.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.451 require authorities to
determine the amount of the monthly housing assistance payment in accordance with HUD
regulations and other requirements.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.455 state that housing
assistance payments contracts terminate automatically 180 calendar days after the last housing
assistance payment to an owner.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.505(b) state that authorities
should pay a monthly housing assistance payment on behalf of a family participating in the
program that is equal to the lower of the payment standard for the family minus the total tenant
payment or the gross rent minus the total tenant payment. Section 982.505(c)(4) states that if the
payment standard amount is increased during the term of the contract, the increased payment
standard amount shall be used to calculate the monthly housing assistance payment for the
family beginning at the effective date of the family’s first regular reexamination on or after the
effective date of the increase in the payment standard amount.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.514(b) state that when the
housing assistance payment exceeds the rent to the owner, authorities may pay the balance of the
housing assistance payment (utility reimbursement) either to the family or directly to the utility
supplier to pay the utility bill on behalf of the family.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.516(a)(1) require authorities to
conduct a reexamination of family income and composition at least annually. The authorities
must obtain and document in the household file third-party verification or why third-party
verification was not available for the following factors: (i) reported family annual income, (ii)
the value of assets, (iii) expenses related to deductions from annual income, and (iv) other factors
that affect the determination of adjusted income. At any time, authorities may conduct an
interim reexamination of family income and composition. Interim examinations must be
conducted in accordance with policies in the authorities’ administrative plans. As a condition of
admission to or continued assistance under the program, the authorities shall require the family
head and such other family members as the authorities designate to execute a HUD-approved


                                                34
release and consent form (including any release and consent as required under 5.230 of this title)
authorizing any depository or private source of income or any federal, state, or local agency to
furnish or release to the authorities or HUD such information as the authorities or HUD
determine to be necessary. The authorities and HUD must limit the use or disclosure of
information obtained from a family or from another source pursuant to this release and consent
to purposes directly in connection with administration of the program.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.517 state that authorities must
use the appropriate utility allowance for the size of dwelling unit leased by the family, and the
utility allowance schedules must take into consideration unit size and unit type.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.553(a)(2) state that authorities
must establish standards that prohibit admission to the program if any member of a household is
subject to a lifetime registration requirement under a state sex offender registration program.
The authorities must perform criminal history background checks necessary to determine
whether any household member is subject to a lifetime sex offender registration requirement in
the state where the housing is located and in other states where the household members are
known to have resided.

Chapter 5.3 of HUD’s Housing Choice Voucher Program Guidebook 7420.10 requires
authorities to recalculate households’ annual income at least annually.

Form HUD 9886, Authorization for the Release of Information/Privacy Act Notice, states that
each member of an applicant’s or participant’s household 18 years of age or older is required to
sign the form.

Section 6.5, paragraph C, of the Commission’s program administrative plan states that the
Commission will approve a lease if the lease is approvable and includes the following: the
names of the owner and the tenant, the address of the unit, the terms of the lease, the amount of
the monthly rent to the owner, a specification of the utilities and appliance to be supplied by the
owner and the household, and the required HUD tenancy addendum. Paragraph E states that the
Commission will approve a lease if the household’s share of rent does not exceed 40 percent of
its monthly adjusted income if the gross rent exceeds the applicable payment standard.

As of June 2005, section 10.1 states that the Commission will use five verification methods in
the following order: 1) up-front income verifications, 2) third-party written verifications, 3)
third-party oral verifications, 4) household documentation reviews, and 5) self-certifications and
self-declarations. The Commission allows three weeks for the return of third-party written
verifications before obtaining third-party oral verifications and five business days to obtain third-
party oral verifications before requesting household documentation. The Commission will
maintain income documentation in the household files. Section 10.3 states that the citizenship or
eligible noncitizen status of each household member must be determined regardless of age.

As of June 2005, section 14.3 states that if the Commission makes a mistake in calculating a
household's rent contribution and overcharges the household, the household shall receive a
refund for the amount of the mistake going back to a maximum of 12 months. The Commission
shall refund the household as soon as practical. However, if the household owes the
Commission money, it will first offset the debt as much as possible.


                                                 35
Finding 2
The United States Code, title 42, chapter 8, subchapter I, subsection 1437u(c)(1), states that each
public housing agency carrying out a local program under this section shall enter into a contract
with each leaseholder receiving assistance under the program of the public housing agency that
elects to participate in the Family Self-Sufficiency program under this section. The contract
shall establish specific interim and final goals by which compliance with and performance of the
contract may be measured and shall specify the resources and supportive services to be made
available to the participating household.

HUD issued a notice for fiscal year 2005, Notice of HUD’s Fiscal Year 2005; Notice of Funding
Availability Policy Requirements and General Section to the Super Notice of Funding for HUD’s
Discretionary Programs dated March 21, 2005, stated that the purpose of the Family Self-
Sufficiency program coordinator was to assure that program participants are linked to the
supportive services they need to achieve self-sufficiency. Those authorities who apply for the
funding must administer the Family Self-Sufficiency program in accordance with HUD
regulations and requirements in 24 CFR [Code of Federal Regulations] 984, which governs the
Housing Choice Voucher Family Self-Sufficiency program, and must comply with the existing
Housing Choice Voucher program requirements, notices, and handbooks. Applications for the
authorities that fall into any of the following categories are ineligible for funding under the
notice of funding and will not be processed: (1) an application from an authority that as of the
application due date had not made progress satisfactorily to HUD in resolving serious
outstanding OIG audit findings, or serious outstanding HUD management review of independent
public accountant findings for the Housing Choice Voucher program and/or Moderate
Rehabilitation program or a “troubled” rating under Section Eight Management Assessment
program, and had not designated another organization acceptable to HUD to administer the
Family Self-Sufficiency program on behalf of the public housing authority as required in Section
III.C.3.e of this notice of funding.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.102 state that under the Family
Self-Sufficiency program, low-income households are provided opportunities for education, job
training, counseling, and other forms of social service assistance so they may obtain the
education, employment, and business and social skills necessary to achieve self-sufficiency.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.103 state that the contract of
participation includes all individual training and service plans entered into between an authority
and all members of a household who will participate in the Family Self-Sufficiency program and
which plans are attached to the contract of participation as exhibits.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.202 state that each
participating authority must establish a committee, the functions of which will be to assist the
authority in securing commitments of public and private resources for the operation of the
Family Self-Sufficiency program within the authority’s jurisdiction, including assistance in
developing the action plan and in program implementation.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.303(d) state that an authority
shall, in writing, extend the term of the contract of participation for a period not to exceed two
years for any Family Self-Sufficiency program participant who requests, in writing, an extension


                                                36
of the contract, provided that the authority finds that good cause exists for granting the extension.
An extension of the contract of participation will entitle the participant to continue to have
amounts credited to the participant’s Family Self-Sufficiency program account.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.305(a)(2)(ii) state that
investment income for funds in a Family Self-Sufficiency program account will be prorated and
credited to each participant’s account based on the balance in each participant’s account at the
end of the period for which the investment income is credited.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 984.305(a)(3) state that each
authority will be required to make a report, at least once annually, to each Family Self-
Sufficiency program participant on the status of the participant’s account. Section 984.305(b)(3)
states that an authority shall not make any additional credits to a participant’s account when the
participant has completed the contract of participation or when the contract of participation is
terminated or otherwise nullified.

Section V of the Commission’s family self-sufficiency action plan states that the Family Self-
Sufficiency program participant is required to sign and fulfill a contract of participation as part of
the Family Self-Sufficiency program requirements. The effective date of the contract of
participation will be on the first day of the month in which the participant began participating in
the Family Self-Sufficiency program. The contract of participation is an agreement between the
Commission and the participant that sets forth the provisions of the Family Self-Sufficiency
program, specifies the resources and supportive services that will be made available, and outlines
the responsibilities and obligations of the participant. The contract will indicate the obligations
to which the participant has committed and the length of the contract of participation, which shall
not exceed five years unless the Commission extends the term of the contract. An extension will
be considered only after the Commission receives a written recommendation and a written
request from the participant asking that an extension be granted. If it can be properly
documented that good cause exists for the extension, the Commission may extend the contract of
participation for up to an additional two years. Regardless of the participant’s status at the end of
the two-year extension, no additional time will be allotted beyond a total of seven years.

Section VIII of the Commission’s family self-sufficiency action plan states that the Commission
shall establish escrow accounts for each of the Family Self-Sufficiency program participants.
Credits for all of the participants will be deposited into a single HUD-approved investment
account. The escrow accounts will be monitored individually, and interest income from the
group investment will be prorated for each participant according to the participant’s
accumulative credits.

Finding 3
HUD’s regulations at 24 CFR [Code of Federal Regulation] 982.355(e)(2) state that an initial
authority must promptly reimburse a receiving authority for the full amount of the housing
assistance payments made by the receiving authority for a portable household. The initial
authority must promptly reimburse the receiving authority for 80 percent of the initial authority’s
ongoing administrative fee for each unit month that the household receives assistance under the
receiving authority’s tenant-based program. If both authorities agree, the authorities may
negotiate a different amount of reimbursement.


                                                 37
According to paragraph 3 of HUD’s Public and Indian Housing Notices 2004-12, 2005-28, and
2006-25, an initial authority is required to promptly reimburse a receiving authority for the full
amount of housing assistance payments and 80 percent of the administrative fee per unit cost, as
determined by HUD, or some other negotiated amount if both authorities agree for each unit
month that the household receives assistance under the receiving authority’s program. Paragraph
8 states that the initial authority must pay the first billing amount due within 30 calendar days of
the receipt of part II of Form HUD-52665. The initial authority must continue making payments
for each month the billing arrangement is in effect. Paragraph 12 states that failure to comply
with the financial procedures required by HUD, including the billing and payment deadlines
outlined above, may result in administrative sanctions, including the reduction in administrative
fees.

Section 8, part D, of the Commission’s program administrative plan states that an initial
authority will promptly reimburse the receiving authority for 80 percent of the initial authority’s
ongoing administrative fee for each unit month that the household receives assistance under the
receiving authority’s tenant-based program.

Finding 4
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.152(a)(3) state that authorities’
administrative fees may only be used to cover costs incurred to perform the authorities’
administrative responsibilities for the program in accordance with HUD regulations and
requirements.

Section 11 of the annual contributions contract between the Commission and HUD states that
program receipts may only be used to pay for program expenditures.

HUD’s Housing Assistance Payments Program Accounting Handbook 7420.6, chapter 5, part 24,
paragraph C, page 34, states that if authorities are administering other low-income housing
programs or are involved in enterprises other than the program and certain costs incurred are
applicable to other than the program, it will be necessary to prorate such costs in order to charge
the program with its applicable portion of the costs. The authorities shall maintain for audit
purposes appropriate schedules and worksheets showing how the allocation of costs was made.




                                                38
      Appendix D

        HOUSEHOLD FILE REVIEWS – MISSING OR INCOMPLETE
                       DOCUMENTATION
                                                                                                                                Housing
                                                                                                                               assistance/
                                                                                                                                 utility
                                                                                                          Housing              allowance
                                           Proof      Social                  Lead-based     Criminal    assistance
Household   Information   U.S. citizen    of legal   Security     Initial        paint        activity   payments             payments not
 number       release     certification   identity   number     application   notification   screening    contract    Lease    supported
  343                                                   X                          X                                   X           $2,937
  401                          X                                                   X                                                3,055
  1055                         X                                                                                                         0
  1771                                                                            X                                                      0
  2151                                                                            X                                                      0
  2468                                                                                                      X                            0
  2643                                                              X                                                                    0
  2935                                                              X                                                                    0
  3469                                                              X                                                                    0
  3968                                      X                                                   X                                  16,492
  4046                         X                                                                                                         0
  4071                                                                            X                                                      0
  4147                         X                                                                                                         0
  4166                                                                            X                         X          X            4,818
  4271                                                                                          X                                   4,008
  4365                         X            X                                                   X                                  11,784
  4659                                                                            X                                                      0
  4684                                                                            X             X                                   5,303
  4757          X                                                                                           X          X            6,380
  4905                         X                                                                X                                   4,707
  5041                                                                                          X                                  11,603
  5088          X                                                                               X                                  12,156
  5090                                                                                          X                                  18,223
  5231                                                                            X                                                      0
  5423          X                                                                                                                   1,572
  5429                                                                                          X                                   6,001
  5471          X                                                                                                                   1,914
  5532                                                                                          X                                  11,927
  5562                                                                                          X                                   8,448
  5596                                                                            X                                    X            1,242
  6391                                                                                                      X          X            4,854
  6526                                                              X                                                                    0
 Totals         4               6            2          1           4             10            11           4         5         $137,424


      Note: An “X” identifies the missing or incomplete documentation in the household’s file.




                                                                   39
Appendix E

    HOUSING ASSISTANCE AND UTILITY ALLOWANCE
                 PAYMENT ERRORS
                  Total 2005 housing and       Total 2006 housing and       Total housing assistance and utility
                     utility assistance           utility assistance               allowance payments
      Household   payments over(under)-        payments over(under)-
       number            payments                     payments              Overpayments         Underpayments
         343                         $1,680                           $0            $1,680                    $0
         401                             (9)                            0                0                   (9)
        1095                             84                             0               84                     0
        1332                          (444)                             0                0                 (444)
        1771                             33                             1               34                     0
        1803                           (54)                             0                0                  (54)
        2151                               0                     (2,430)                 0               (2,430)
        2180                          (188)                             0                0                 (188)
        2315                            792                             0              792                     0
        2468                            252                             0              252                     0
        2474                          1,032                        (235)               797                     0
        2563                          (180)                         (33)                 0                 (213)
        2643                            240                         (20)               220                     0
        3132                               0                       (216)                 0                 (216)
        3469                            312                          102               414                     0
        3968                               0                        (15)                 0                  (15)
        4046                               0                       (114)                 0                 (114)
        4147                            500                          100               600                     0
        4489                          (639)                        (158)                 0                 (797)
        4490                          (495)                             0                0                 (495)
        4684                           (72)                         (12)                 0                  (84)
        4712                            105                             0              105                     0
        4724                             24                             0               24                     0
        4857                            844                             0              844                     0
        4887                             95                         (32)                63                     0
        4905                          (388)                             0                0                 (388)
        4945                            132                             0              132                     0
        5088                          (315)                             0                0                 (315)
        5090                             28                           30                58                     0
        5231                          (188)                             0                0                 (188)
        5423                               0                        (42)                 0                  (42)
        5429                          2,532                             0            2,532                     0
        5471                               0                       (518)                 0                 (518)
        5532                          (172)                        (268)                 0                 (440)
        5562                          (667)                        (174)                 0                 (841)
        5596                             (9)                            0                0                   (9)
        5659                           (11)                           (3)                0                  (14)
        5688                               0                          93                93                     0
        5705                               0                        (75)                 0                  (75)
        5769                            394                             0              394                     0
        5783                               0                        (64)                 0                  (64)
        6155                             42                             0               42                     0
        6231                               0                       (748)                 0                 (748)
        6391                               0                        (24)                 0                  (24)
        6426                               0                         360               360                     0
        6446                               0                          74                74                     0
        6516                               0                          48                48                     0
        6555                               0                            2                2                     0
       Totals                        $5,290                     ($4,371)            $9,644              ($8,725)




                                                         40
